   TRANSCUTANEOUS ELECTRICAL

 NERVE STIMULATION (TENS) DEVICES





   f,B.VICES.




   "dia


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                     JULY 1989
      TRANSCUTANEOUS ELECTRICAL

        NERVE STIMULATION (TENS)

                DEVICES





                    Richard P. Kusserow
                   INSPECTOR GENERAL




OAI- 02-   88060                          JULY 1989

                                EXECUTIVE SUMMARY

PURPOSE

This inspection was conducted to identify vulnerabilties in Medicar reimbursement for   trs­
cutaeous electrcal nerve stiulation (TNS) devices.

BACKGROUND

The TENS, a low-voltage electrcal impulse generator used as a pain-control device, usually
looks lie a portble transistor radio and can be attached to one s belt. Properly trned, pa­
tients are able to use this device as they go about their daily activities.

Medicare covers long-term use of TENS when it provides signifcant therapeutic   benefit to pa
tients with chronic pai and shon-term use for acute post-operative pai.

Medicare coverage guidelies for treatig chronic pai reuire that TENS be used for a
month tral period and its effectiveness monitored by the physician or physical therapist. The
device may be rented durg the assessment period and then purchased if beneficial.

Reimburement for TENS has incrased substatialy over the past few years. Allowed Medi­
care charges in 1985 were $12 802, 927; they incrased by 55 percent in 1986 to $20, 381 751
and by an additional 97 percent in 1987 to $40, 111, 359.

The Offce of Inspector General' s (OIG) concerns about Medicare reimbursing for TENS were
generated by beneficiar complaints. A Medicare Fraud Alen was issued in ,T111v 1 Q TPnnrt­
ing on aggrssive sellig techniques by suppliers of TENS.

ISSUES AND METHODOLOGY

The priar    issues adessed were: (1) to what extent ar carers reimburing for TENS
claims which do not meet Medcare coverage guidelines, and (2) how useful are Medicare ben­
eficiares actually finding TENS in alleviating pain?

A radom ' sample of 210 cases was. selected frm 1986 HCFA data for both rentig and pur­
chasing TENS. Sixty were drpped because the beneficiar was either deceased or could not
be located. Clais and supportng dpcuments were obtained from the carers for each of
these beneficiares.

Telephone discussions were held with 126 of the remaiing 150 sample beneficiares to gather
pertent information on whether thy-had received the TENS, their impressions as to its effec­
tiveness, and whether they had a tral period. A subsample of 26 physicians who authorized
TENS was contacted by telephone, along with severa physical therapists with expertse in
using TENS. . Additionally, information was collected from 26 Medicar carers for whom
sample beneficiar claims were submitted to determne their policies relating to TENS. Fony­
eight State Medcaid progrs and the Veterans Administration provided information regard­
ing their reimburement of TENS.

FINDINGS

One-third Of Clams For Beneficiaries Contacted Were Inappropriately Reimbursed

Medicare carers should not have paid for 33 percent of the TENS because they were either
possibly fraudulent or failed to meet the Medicar coverage requirements for a tral period.
This resulted in an estiated loss of $4 394 500 to Medicar (appendix I).

Nine percent (11 of 126) of claims for the beneficiares contacted are possibly fraudulent.
These 11 beneficiares denied ever having a TENS. (These cases have been referred to the
OIG' s Offce of Investigations. ) Additionaly, 24 percent (30 of the 126) of the beneficiares
contacted did not have the requid tral period of at least 1 month. Typically these people im­
medately purchased a TENS.

Medicare caer proedures to enforce the tral period need strengthening. Although the sup­
portng documentation submitted with the 85 sample purchase claims mentioned a tral period
in thee- quarrs of the cases, only hal of those indicated a successful tral period.

Only hal of the physicians contacted knew the Medicar guidelines for reimburing TENS,
and only half of the carers had sent any educational information about TENS coverage to
providers.

Most Purchased Tens Units Were Found Helpful; Trial Period Plays Major Role In
Assuring Appropriate Use

Nearly 80 percent (67 or 85) of beneficiares who purchased and received a TENS found it
beneficial. Eighty- four percent of the beneficiares who had the TENS recommended by a
medical practitioner found it helpful; in contrst , only 56 percent of those who did not have it
so recommended found it helpful. 

Use of the required tral-period is criticaly importt in assuring the most effective use of
TENS. Of the 55 beneficiares who purhased a TENS and had a tral period, virtally all (53
of 55) found the TENS helpful. In contrt, only 47 percent of those who purchased a TENS
without a tral period (14 of 30) were helped.

Most of the 26 physicians contacted view the TENS favorably. Two- thirds of the physicians
said it was their idea to prescrbe a TENS and most thought the TENS helpful in relieving the
patient s pain. More than hal said the patient was seen during the tral period by either them­
selves or a physical therapist to teach th patient to use the TENS and evaluate its effective­
ness.
RECOMMENDATIONS

To reduce inappropriate payments for TENS, HCFA should:

     Evaluate and strengten ,   as needed, carer implementation of Medicare and Omnibus
     Reconcilation Act of 1987     (OBRA 1987) requirements to:

               ensure a tral period prior to purchasing a TENS by assurng an appropriate
               certfication form is submitted by the physician which indicates information on
               trning in using the device and its effectiveness;

               prohibit payment unless the supplier receives a wrtten order from the physician
               prior to delivering the device to the patient.

     Publici     Medicar coverage requirments to the medical community; and

     Add TENS to the categories of servces to be considered by carers      when conducting
     postpayment reviews of providers.

HCFA RESPONSE

The HCFA concurd with the OIG recommendations and made some genera comments (see
appendix 11.
                 .................................................
                              ... .. .... .... ..... . . . ...... .. .. .. ... ............ ....... .. ...... .. .................. .... .. .
                      . . . . . .
                                . .. .. .. .............................................
                                             .. .. .. .. .. .. .. ... .. .. ... .. .. ... .. .. .. ... .... ....
                                                                                                              ....... .... ... ... ... ... ... .... .......... ... . . . . .. .. .. .. .. .. .. .. .. .




                                                            TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION                                                                                                                                                                                  .. . . 1

         Purose
         Background. . . . . .
         Issues. . . . . . . . . . . . . . . . . . . . . . . . . .
         Methodology.... . ..

FI N DI NGS                                                                                                                                                                         8 . . . . .



         One- thd of the clais for beneficiares contacted were
         inappropriately reimbured. .

         Most purhased TENS units found helpful; tral                                                                 period plays
         major role in assurg appropriate use

RECOMMENDATIONS

APPENDICES

         I. Methodology..................................................                                                                                                                       .

         ll. HCFA general comments an OIG response
                                      INTRODUCTION


PURPOSE

The purose of this inspection was to identify vulnerabilties in Medicar reimbursement for
trscutaeous electrcal     nerve stimulation devices.


BACKGROUND

When senior citizens get together, the tal frquently turs to the subject of pain , panicularly
chronic pai. Many different therapies have been tred for relieving chronic pain with varing
degrees of success. A relatively new modality is a transcutaneous electrcal nerve stiulation
device, hereafter referred to as TENS.

The TENS is a low-voltage electrcal impulse generator used as a non-pharacological pai­
control device. It usually looks like a portble transistor radio and can be attached to one
belt. Properly trned, patients ar able to use this device as they go about their daly activi­
ties. There ar multiple brands and models on the market, each slightly different but al hav­
ing wies leadig to either two or four electrodes. The electrodes are placed on the patient
body at positions selected by a physician or physical therapist based on varous factors such as
the anatomical location of periphera nerves and/or the ara of gratest pai. However, an ele­
ment of tral and error is always present when determning placement. After the electrodes
placed with conducting jelly between them and the patient s skin , the controls ar set , the unit
is tued on , and a pulsating curnt passes thugh the area providing a mid-to-moderate
stiulation. Some practitioners prefer low frquency/high intensity stimulation while others
favor high frequency/low intensity application. The literatur   and clinicians both repon vara­
tions in treatment time, raging from 15 or 20 miutes daly to use throughout the day. They
also strss the importce of evaluating patients.


Exactly how relief is achieved is not fully known, but there are two prevalent theories: one,
the Gate' Control Theory, suggests that the pulsating curnt overloads the nerve circuitr and
blocks pai signals to the bra; another theory says that electrcal stimulation causes the brain
to react by releasing natural pain-suppressing substances called enkephelins and endorphins.

A literatue review indicates that TES does not cure a disease and does not work in all cases,
but may give symptomatic relief of pain. Most clinicians agree that TENS applied properly
can be effective , regardless of the brad or model, although one model may be more effective
for a parcular patient than another. However, in untrained hands TENS is not an effective or
valuable modity. Although some clinicians repon as much as a 90 percent success rate with
carefully selected patients, most repon about a 40- 50 percent success rate.
       ...




Medicare Coverage

Medicare reimburses for both long-term use of TENS when they provide significant therapeu­
tic benefit to patients with chronic pai and for shott-term use for post-operative pain. When
used for the treatment of acute post-operative pai, TENS are covered as supplies. The TENS
are covere, however, as prosthetic devices when used for the tratment of chronic intractable
pain (MCM Chapter ll- Coverage Issues Appendix, Section 65- 8 AI).

Medicare coverage guidelines require that, when used for the tratment of chronic intractable
pai , lENS must be used by the patient on a tral basis and its effectiveness monitore by the
physician or physical therapist. Section 35- 46   of the same appendix addrsses the use of the
tral period to determne the patient s suitabilty for electrcal nerve stimulation   therapy:


          It is used by the patient on a trial basis and its effectiveness in modulating pain
       is monitored by the physician, or physical therapist. Generally the physician or
       physical therapist should be able to determine whether the patient is likely to de,:
       rive signifcant therapeutic benefit from continuous use of a TENS within a trial pe­
       riod of one month; in a few cases this determination ma take longer to
       make... when the physician or physical therapist advises the patient to rent the
       TENS during the trial period program payment ma be made.

Based on the Omnibus Budget Reconcilation Act (OBRA) of 1987, the rental period for
TENS was incrased (effective Januar 1, 1989) to a peripd of not more than 2 months. If the
item is then deterred to be appropriate, it is reimbursed as routinely purchased, equipment.

The OBRA 1987 also requirs payment to be made for cenain equipment such as TENS only
if the physician has communicated a wrtten order for the equipment prior to delivery. This re­
quirment is designed to cunai some aggressive maketing strtegies.

Home use of TENS by patients is discussed in Section 35-48 of the appendix:

       A patient can be taught how to employ the stimulator, once this is done, can use it
       safely and effectively without direct physician supervision.... Once it is determined
       that electrical stimulation should be continued as therapy and the patient has been
       trained to use the stimulator, it is expected that the patient wil employ the TENS
       on a continual basis in his home.

The most appropriate placement of the electres, - as well as the intensity and frequency of the
curnt, is established by the physician or physical therapist after an evaluation period of about
1 month. The device may be reimbured on a rental basis durg this assessment period.
After the physician or physical thelJpist is satisfied that the unit performs a therapeutic pur­
pose, the beneficiar must purhase it. The medical necessity for the services furnished be­
yond the fist month must always be documented. Medical policy guidelines regarding
medical necessity are left up to each carer to determine. Medicare carers are responsible to
see that coverage requirements ar met before approving payment.
Medicare also reimbures for replacement electrodes, gel and batteries when necessar for the
continuing use of TENS for the relief of chronic pain (MCM Section 2130).

Reimbursement

Clais submitted by suppliers under assignment ar paid at 80     percent of the allowable charge
recogn by Medcare. The beneficiar is then responsible for paying the 20 percent coin­
surance to the supplier unless it is a hardship. The supplier is obligated to make a reasonable
effon to collect the coinsurce. Suppliers who do not accept assignment can charge the ben­
eficiar the dierence between their tota charge and the amount Medicare allows. The HCFA
repons a tota of $12 802 927 in alowed Medicar charges for TENS in 1985, a 55 percent in­
crease in 1986 to $20, 381 751 , and a 97 percent increase in 1987 to $40 111, 359. (One carer
had an 832 percent increase in alowed charges from 1986 to 1987: $1 580, 524 to
$14 729, 627. ) The alowed TENS renta charges for the sample clais raged from $50
$101 a month with an average of $89 a month while the allowed purchase charges raged
from $446 to $640 per unit with an average of $480 per unit depending on the carer service
area.

OIG Concerns

The Offce of Inspector General (OIG) has had a number of concerns about Medicar s reim­
bursement for TENS. A Medicare Fraud Alen was issued in July 1988 reportng on aggres­
sive sellng techniques by suppliers of TENS. These included door-to- door solicitation , sales
presentations to groups of senior citizens and the use of physicians travellng with sales agents
to sign the supplier- prepared authorization forms without requirng an evaluation period.
There have also been complaits from beneficiares who never received the units for which
Medicare was biled.

ISSUES

      To what extent arcarers reimbursing      for TENS claims which do not meet Medicare
      coverage guidelies?



      How useful ar   Medicare   beneficiares actually finding TENS in alleviating pain?

METHODOLOGY

This inspection assessed the effectiveness of HCFA poliCy and guidelines, as well as carer
implementation of them, in assurg appropriate Medicar reimbursement. It also examied
Medicare beneficiares ' perceptions of the usefulness of TENS in alleviating pain. Members
of the inspection team included a physical therapist and a registered nurse.

A 0.4 percent sample of 210 cases was selected at radom from beneficiares who had Medi­
care claims reimbursed for TENS in 1986. Sixty were drpped because the beneficiar was ei­
ther deceased or could not be located. This selection was made from 1986 BMAD data for
both the rental and purchase of two- and four-lead TENS.

Telephone discussions were held with 126 of the remaiing 150 sample beneficiares. (The re­
mainig 24 could not be reached by telephone or mai. ) The 126 were fist asked to veriy
they had received the TENS. They were also asked their impressions as to its effectiveness in
relieving their pain (whether acute post-surgical or chronic), their experience with the
cliician s evaluation, their perceptions of the marketing practices of suppliers, and other pert­
nent information.

Claims and supportg    documents   were requested from the 26 Medicar carers to whom the
150 sample beneficiar clais were submitted    and these were reviewed to see whether a tral
period was documented.

A subsample of 30 physicians was selected from those authorizing TENS for the 126 benefici­
ares contacted: telephone discussions were held with 26 of them to gain perceptions regard­
ing their patient s use of TENS. The subsample included physicians of different specialties
from different pan of the countr. In addition , several physical therapists with expertse in
TENS were contacted by telephone to gain perspectives on the above issues.

Carer policy documents were collected from the 26 Medicare carers to whom sample bene­
ficiar claims were submitted to determine their coverage policies relating to TENS. Lastly,
48 State Medicaid programs and the Veteras Admnistrtion provided information regarding
their reimbursement of TENS.
                                                  FINDINGS



One-third Of The Claims For Beneficiaries Contacted Were Inappropriately Reimbursed

Medicar carers should not have paid for 33 percent (41 of 126) of the TENS because they
were either possibly frudulent or they failed to meet the Medicare coverage requirments for
a tral period, resulting in an estimated loss of $4 394 500 to Medicar.


     Nine percent of claims for the beneficiaries contacted are possibly fraudulent. Eleven
     beneficiares denied ever having a TENS. Many added they did not know what a TENS
     was and certnly had never tred one. These questionable claims, representing seven
     suppliers nationwide, include both rentals and purchases. Almost all had what appeared
     to be appropriate signatues and necessar authorization form. (These cases have been
     referred to the OIG' s Office of Investigations.

     Twenty-four percent of the beneficiaries contacted did not have the required trial period
     of at least 1 month. 
The MCM requirment for a tral period (MCM Section 30- 46) was
     not met in 30 cases. Typically, in many of these cases, after a TENS had been
     recommended, a supplier representative would bring the device to the patient s home so
     the patient could tr it; a purchase would then immediately tae place without the
     required tral period. One beneficiar was surprised when the TENS arved because
     she had never even hear of it, was never shown how to use it and was    afd  to tr it.
     Eight of the 30 beneficiares retued their TENS to the supplier in spite of the fact that
     Medicar had reimbursed for it and thus it belonged to them.

     Carrer procedures to     enforce trial period need strengthening. Based on analysis of the
     85 purchase claims, the following was noted: although the- quaners of the supportng
     documentation mentioned a tral period, only half of those had any information to
     suppon the fact that a successful tral period had taken place. A review of the carers
     policies and procedures indicated that they all did require such documentation but
     apparntly did not enforce this requirment on an ongoing basis. Some carers appear
     to routinely reimburse for the purchase of a TENS after a month' s rental without
     requirg any funher information. An additional carer review weakess is revealed by
     the fact that 39 percent of the authorization forms were dated after the date of delivery.
     (OBRA 1987 prohibits payment unless the supplier receives a wrtten order prior to the
     delivery of the device to the patient.

     More education of medical community about TENS needed.   Only half of the physicians
     contacted were awar of TENS guidelines. In addition only half of the Medicare
     carers had sent educational information about TENS coverage to physicians and
     suppliers.
      Other payors take diferent approach in approving TENS. 
   State Medicaid agencies are
      not required to cover TENS but the majority do. Almost all require prior approval,
      meang that a claim must be submitted with documentation of need and effectiveness
      prior to reimbursement. A few States requir that only physicians in cenain specialties
      can authori TENS. Some States require documentation of patient evaluation durng
      the tral period before the purhase is to be considered. This may include a descrption
      of the patient s emotional status and capacity to use a TENS effectively. Some States
      requi a specifc TENS form including questions relating to diagnosis, date of onset,
      durtion of medical necessity, treatment plan, and prognosis.


      The Veteran          s Admistration (VA) also uses a prior approval system and requirs      evalu­
      ation durg          a tral period with follow-up visits by a clinician after the device is pro­
      cured. The TENS are obtained from contracted suppliers who deal directly with the VA
      rather than with the patient. pevices are retued to the VA when they are no longer use­
      ful and are refurbished if cost effective.

Most Purchased Tens Units Found Helpful; Trial Period Plays Major Role In Assuring
Appropriate Use

             j really enjoy the relief it gives me because j lived with the agony of back pain for
          so many years. "          (a    TENS patient)

     Nearly 80 percent             of beneficiaries who purchased TENS found it beneficial.
                                    (67    of   85)

     The majority had low- back pain and/or anhrtis and had experienced pain for a number
     of year. Most had taken pai medication with varng results. The duration and
     frquency of their use difered considerably from leaving it on all day to using it for a
     few miutes several ties a day. Most used four electrodes and placed them wherever
     they had pai. Some used the TENS on diferent pan of the body at different times,
     dependig on where their pain was. Many said that they moved the electrodes a bit each
     tie they applied them , a practice which clinicians say is advisable to prevent skin
     irtation. Most also changed the intensity to a point where it was helpful; some said
     that point vared dependig on the battery strength. Some (9 of 85) had actually used it
     successfully for acute post-surgical pain , but continued its use for chronic pain.

     Greater role of medical professionals with TENS helps to assure most appropriate use.
     Eighty- four percent (58 of 69) of beneficiares who had their TENS recommended by a
     medical practitioner found it helpful , while only 56 percent (9 of 16) of those who did
     not have it so recommended found it helpful. The remaining 16 beneficiares became
     awar of the TENS from TV ads, senior citizens centers, frends, or relatives.

     Only one-third of the patients reported having follow-up care with their medical
     practitioner.Although there ar no Medicare guidelines requirng follow-up for users
     of TENS, many clinicians contacted encouraged it to ensure the most wonhwhile use of
     the device. They believe that following up to ascertn whether the TENS is working
properly and continuing to relieve pai serves a positive role. The data indicate that
follow-up does not take place in the majority of cases. However, 17 percent of those
beneficiares that did not fid TENS helpful had follow-up after purchase; in contrast,
39 percent of those helped by TENS had such follow-up which suppons the helpfulness
of keeping in touch with the patient even after the tral period.

Use of the required trial period is critically important in assuring the most effective use
of TENS. 
Of the 85 beneficiares who purchased a TENS, 55 had the benefit of a tral
period. Our analysis reveals that virally all of these beneficiares with a tral period
(53 of 55) found the TENS helpful. In contrst, only 47 percent of those who purchased
without a tral period (14 of 30) were benefitted. Clinicians also agred that a tral
period that teaches the patient how to best apply and operate the TENS and allows
evaluation of the device s usefulness is essential. Although clinicians suggest tring
several different units for best results, almost all beneficiares only      tred one.


Beneficiaries                                                     Eighty percent of those
                      ' rental experience supports value of trial period.

who rented but did not purchase the TENS (24 of 30) found it was not helpful durng
the 1 month' s tral period and returned it to the supplier. These 24 beneficiares were
thus given the opportnity to tr the TENS before the clinician reached a decision as to
its purchase. By determning that it was not helpful, the tral period served to avoid
inappropriate reimbursement of the TENS.

Within this group of 30 bebeficiares who rented but did not eventually purchase, 6 expe­
rienced some pain relief whie using the TENS. However, they decided not to purchase
the TENS after their tral period (1 month rental) for a varety of reasons. One individ­
ual died, one had the TENS picked up by the supplier, two no longer experienced pain
and two simply disliked using the device. Of the 30 beneficiares who only rented a
TENS, almost all had the device explaied to them and also received wrtten instrc­
tions on its use.

Physicians view TENS favorably. 
    Most of the 26 physicians contacted felt very
positively about TENS. A tyical comment was: " TENS units ar effective if used
properly. " This was echoed by many who thought TENS to be an effective tratment
for selected patients and preferable to prescribing drgs. Two- thirds of the physicians
said it was their idea to prescribe a TENS and almost all denied any pressure from
patients, famlies or suppliers to prescribe one. Sixty- five percent (17 of 26) of the
physicians said the TENS was helpful in relieving pain for the patient in the sample,
Although the majority of physicians had an ongoing relationship with the patient, one
quaner saw the patient only when the TENS was ordered. Most (58 percent) said the
patient was seen durng the tral period by either themselves or a physical therapist to
the TENS for-ts effectiveness and teach the patient to use it.
Severa physicians suggested that TENS prescrbing be limited to cenain specialists
with expertse in the area. Other physicians mentioned that they refer their patients who
are candidates for a TENS to a physical therapist to evaluate the device for its effective­
ness and wil wrte a prescrption only if there is a positive result.
                                      RECOMMENDATIONS



 The following recommendations were presented to HCFA in the draft repott. To reduce inap­
 propriate payments for TENS, HCFA should:

Evaluate And Strengthen, As Needed, Carrier Implementation Of Medicare And Obra 1987
Requirements To:

          Ensure a tral period prior to purchasing TENS by assurng that a cenification form is
          submitted by the physician which indicates the training of the patient in the use of the
          device and a certfication of its effectiveness for the patient s pain relief.

          Prhibit payment unless the supplier receives a wrtten order from the physician prior to
          the delivery of the device to the patient

HCFA Comments: 
       Medicar Carers Manual Transmittal 1284 , effective for services ren­
dered on or after    Januar 1 , 1989, requires that suppliers have a wrtten physician s order in
hand prior to delivery of a TENS device to a Medicare patient. If the wrtten order is not in
the supplier s hand prior to delivery, payment may never be made for that item even if a wrt­
ten order is subsequently furished by a physician. The item , however, may be provided by
another supplier to the same patient and, if the appropriate requirments are met , payment
may be made under the progr.

A drt transmittal which includes a new TENS physician certfication form is also in HCFA'
clearce proess. The new form    contains questions regarding patient training, tratment, and
expected improvement with a TENS. This certfication , requird for every beneficiar pur­
chase order for a TENS, wil show the results of his/her tral period.

Publicize Mediare Coverage Requirements To The Medical Community.

HCFA Comments: 
       Medicare Carers    Manual      Transmittal 1299, released in April 1989, re­
quis each carer to notify the State medical society and any applicable specialty societies of
the medical guidelines to be used in adjudicatiftg TENS claims.

Add Tens To The MCM Section 7512E Postpayinent Alert List Which Suggests Areas Of De­
tectedAbuse That Should Be Considered When Selecting Cases For The Current Year
    payment Re ew.

HCFA Comments: 
       Medicar Carers Manual Transmittal 1299 (mentioned above) goes be­
yond the OIG recommendation that TENS be considered during postpayment reviews. Car­
ers are now required to manually review each TENS claim on a prepayment basis. We believe
that a 100 percent prepayment review of TENS claims is more effective than a postpayment re­
view conducted on a sample basis. Carers, however, ar not precluded from conducting
postpayment reviews. They may conduct postpayment          reviews of TENS claims to identify
the existence of program abuse or fraudulent situations.
                                        APPENDIX I



METHODOLOGY

The data for this inspection was pulled from the 1986 BMA data and represents a 0.4 per­
cent sample of al records for that year for whom TENS claims were paid. There were 310 re­
cords found representing 210 beneficiares. Accordig to the analysis, 41 of these individuals
had inappropriate payments totaling $17, 578 in allowed charges. This is an average of $83.
per sample beneficiar (stadard error of 13. 69). The total number of beneficiares in 1986
with bils for TENS is estimated to be 52 500. Based on this universe, it is estimated that
there were $4 394 500 (stada error of $718, 725) in inappropriate allowed payments in
1986. The 90 percent confdence interval of this estimate has a lower cutoff point of
$3, 212 197 and an upper cutoff point of $5, 576, 803. The overal precision of this estiate is
26. 9 percent

Cost savings can also be projected more conservatively based on the 26 beneficiares who ei­
ther did not receive the TENS or did not have a tral period and also did not benefit from the
TENS. These 26 beneficiares had overpayments totaling $10, 743 in allowed charges. This is
an average df$51.16 per sample beneficiar (stadard error of 10. 868). Cost savings is esti­
mated to be $2, 685, 750 (standard error of $570, 570) in 1986. The 90 percent confidence inter­
val of this estiate has a lower cutoff point of $1, 747, 162 and a upper cutoff point of
$3, 624 338. The overal precision of this estimate is 34. 9 percent.
                                          APPENDIX II


The HCFA' s comments on our specific recommendations are included in the repon
recommedations section. The HCFA' s general comments and our responses follow.

HCFA GENERAL COMMENTS

We do not agree with the OIG' s finding that "one- third of the claims for beneficiares con­
tacted were inappropriately reimbursed. " This finding was based on 11 claims of suspected
frud (the beneficiares denied receipt of a TENS device) and 30 claims where beneficiares re­
poned that they had no tral period. Improved claims processing requirements would not have
resulted in the denial of the potentially fraudulent claims found by the OIG. Therefore, these
claims should not be included in the methodology for computing the overpayment. Also, pay­
ment for the purchase of TENS units without a tral period is not necessarly indicative of an
overpayment or unnecessar progr reimbursement. A great percentage of these devices
would have been purchased had a tral period been given. Therefore, the existence of inappro­
priate reimburement has not been demonstrted. Based on the above comments regardig the
OIG' s fmdings, we do not agre that over $4 millon in appropriate payments were made in
1986.

Furer, we are unable to reconcile the statistic;s quoted in paragraph 3, page ii in the Execu­
tive Summ, with similar data in the last two paragrphs of thIs same page. Pargraph 3
states that thee-fours of the 85 beneficiares receiving a TENS had a tral period, and of
these beneficiares one- hal had a successful tral period. These numbers disagree with the
last paragrph which states that 53 beneficiares having a tral period " found the TENS help­
ful. " Ths dierence should either be explained or the third paragrph changed to coincide
with the data in the last paragrph.

OIG RESPONSE

We respond to HCFA's genera comments concerning the issue of reimbursement and statisti':
cal discrepancies in the following manner:

        HCFA defines inappropriate reimbursement differently than we do. We believe that all
        payments that are not allowable under law or regulations are inappropriate whether or
        not contrctors are able to identify the problems. Therefore we continue to suppon
        finding number one. In the 11 instances where the beneficiares denied receipt of the
        TENS, the clais were inappropriately reimbursed.

        Relative to the 30 beneficiares who did not have. a tral period, Medicar coverage
        guidelines requie that, when used for the tratment of chronic intractable pain , TENS is
        used by the patient on a tral basis and its effectiveness is monitored by the physician or
        physical therapist This is an importt safeguard for preventing inappropriate reimbur­
sement of the TENS. If a TENS unit is purchased without the required tral period and
the beneficiar finds the device helpful, the usefulness of the TENS is incidental to the
fact that the carer should not have paid for it without determning that it had been tred
and was found helpful in alleviating pain.

The statistics quoted in paragraph 3 of page ii in the Executive Summar were derived
frm information provided from the supportng documentation submitted with the 85
sample purchase claims. The figures used in the last paragrph of the same page,
however, were derived from actual interviews with the beneficiares themselves.
Therefore, the diference in figurs can be explained by the source of data used.
